CERTIFICATE OF SERVICE
No. 19-370
Samuel D. Silva-Ramirez

Petitioners)
v.
Hospital Espanol Auxilio Mutuo de Puerto Rico, Inc., et al.
Respondents)

STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the SAMUEL
David Silva-Ramirez Petition for Rehearing, by mailing three (3) true and correct copies of the
same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Iris M. Monrouzeau
Bufete Arroyo & Monrouzeau
Union Plaza Bldg., Suite 1600
Ponce de Leon 416
San Juan, PR 00918
(787) 754-1080
Counsel for Hospital Espanol Auxilio Mutuo
de Puerto Rico, Inc. et. al.

—

Lucas'DeDeus

December 20, 2019
SCP Tracking: Silva-Ramirez-243 Paris St. PMB 1834-Cover Tan

